     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

September 15, 2010


Report Number: A-09-10-02005

Mr. Dennison K.S. Lau
Director
D and M Sales, LLC
3322 Campbell Avenue
Honolulu, HI 96815

Dear Mr. Lau:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments to D and M Sales, LLC, for
Power Mobility Devices for Calendar Years 2006–2008. We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email
at Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-10-02005 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Dennison K.S. Lau


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF MEDICARE PAYMENTS TO
      D AND M SALES, LLC,
FOR POWER MOBILITY DEVICES FOR
  CALENDAR YEARS 2006–2008




                       Daniel R. Levinson
                        Inspector General

                        September 2010
                         A-09-10-02005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1) and 1861(n) of the Act, Medicare Part B provides for the
coverage of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). The
Centers for Medicare & Medicaid Services contracts with four durable medical equipment
Medicare administrative contractors (DME MAC) to process and pay Part B claims for
DMEPOS. Pursuant to section 1862(a)(1)(A) of the Social Security Act (the Act), no payment
may be made under Part B for any expenses incurred for items that are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.

Medicare Part B provides for the coverage of power mobility devices (PMD), such as power
wheelchairs and power-operated vehicles. Pursuant to 42 CFR § 410.38(c)(2), the physician or
treating practitioner must (1) conduct a face-to-face examination of the beneficiary, (2) write a
prescription that is provided to the beneficiary or the supplier and is received by the supplier
within 45 days after the face-to-face examination, and (3) provide supporting documentation that
is received by the supplier within 45 days of the face­to­face examination.

Pursuant to 42 CFR § 410.38(c)(1), which refers to section 1861(r)(1) of the Act, a physician is a
doctor of medicine who is legally authorized to practice medicine and surgery by the State in
which he performs such function or action. Section 410.38(c)(2)(iii) states that supporting
documentation for a PMD includes pertinent parts of the beneficiary’s medical record (for
example, history, physical examination, diagnostic tests, summary of findings, diagnoses,
treatment plans, and/or other information as may be appropriate) that supports the medical
necessity of the PMD. The Medicare Program Integrity Manual states that the supplier should
obtain as much documentation from the patient’s medical record as the supplier determines is
needed to ensure that the coverage criterion for an item has been met.

D and M Sales, LLC (D and M Sales), is a durable medical equipment supplier in Honolulu,
Hawaii. During calendar years (CY) 2006 through 2008, Medicare paid D and M Sales
$968,880 for 246 PMDs and associated accessories.

We reviewed a judgmental sample of 30 claims totaling $117,765, which consisted of $99,945
for PMDs and $17,820 for associated accessories. We contacted Noridian Administrative
Services (Noridian), the DME MAC that processed and paid D and M Sales’ Medicare claims, to
evaluate 27 of the 30 claims for compliance with documentation requirements for medical
necessity.

OBJECTIVE

Our objective was to determine whether D and M Sales claimed Federal reimbursement for
PMDs and associated accessories in accordance with Medicare requirements.




                                                 i
SUMMARY OF FINDINGS

During CYs 2006 through 2008, D and M Sales did not always claim Federal reimbursement for
PMDs and associated accessories in accordance with Medicare requirements. Of the 30
judgmentally sampled claims, 1 claim met Medicare requirements but 29 claims did not.

   •   For 26 claims, Noridian determined that there was inadequate documentation to support
       the medical necessity of the PMDs.

   •   For two claims, the written prescriptions for PMDs were not valid because they were not
       provided by physicians or treating practitioners legally authorized to prescribe PMDs in
       accordance with Federal regulations.

   •   For one claim, D and M Sales did not receive the written prescription and the
       beneficiary’s medical record within the required 45 days.

D and M Sales did not have adequate controls to ensure that it claimed Federal reimbursement
for PMDs in accordance with Medicare requirements. As a result, for 29 of the 30 sampled
claims, D and M Sales received $113,941 in unallowable Medicare payments, consisting of
$96,726 for PMDs and $17,215 for associated accessories.

RECOMMENDATIONS

We recommend that D and M Sales:

   •   refund to the Federal Government $113,941 in unallowable payments for PMDs and
       associated accessories and

   •   strengthen controls to ensure that claims for PMDs comply with Medicare requirements.

D AND M SALES COMMENTS

In written comments on our draft report, D and M Sales stated that “we absolutely concur with
[the] … report.” However, D and M Sales did not address our recommended refund. D and M
Sales provided information on actions taken to strengthen controls to ensure that claims for
PMDs comply with Medicare requirements. D and M Sales’ comments are included in their
entirety as the Appendix.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
            Medicare Program ...................................................................................................1
            Power Mobility Devices .........................................................................................1
            D and M Sales, LLC. ..............................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2
            Objective .................................................................................................................2
            Scope .......................................................................................................................2
            Methodology ...........................................................................................................2

FINDINGS AND RECOMMENDATIONS .........................................................................3

          INADEQUATE DOCUMENTATION SUPPORTING
            MEDICAL NECESSITY ...........................................................................................3

          UNAUTHORIZED ORDERING PHYSICIANS ........................................................4

          UNTIMELY RECEIPT OF WRITTEN PRESCRIPTION AND
           MEDICAL RECORD ................................................................................................4

          RECOMMENDATIONS ..............................................................................................4

          D AND M SALES COMMENTS.................................................................................4

APPENDIX

          D AND M SALES COMMENTS




                                                                      iii
                                        INTRODUCTION

BACKGROUND

Medicare Program

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Pursuant to sections 1832(a)(1) and 1861(n) of the Act, Medicare Part B provides for the
coverage of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). CMS
contracts with four durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Medicare Part B claims for DMEPOS. Pursuant to section
1862(a)(1)(A) of the Act, no payment may be made under Medicare Part B for any expenses
incurred for items that are not reasonable and necessary for the diagnosis or treatment of illness
or injury or to improve the functioning of a malformed body member.

Power Mobility Devices

Medicare Part B provides for the coverage of power mobility devices (PMD), such as power
wheelchairs and power-operated vehicles (which are commonly referred to as scooters).
Pursuant to 42 CFR § 410.38(c)(2), the physician or treating practitioner must (1) conduct a
face­to­face examination of the beneficiary, (2) write a prescription that is provided to the
beneficiary or the supplier and is received by the supplier within 45 days after the face­to­face
examination, and (3) provide supporting documentation (including pertinent parts of the
beneficiary’s medical record that supports the medical necessity of the PMD) that is received by
the supplier within 45 days of the face­to­face examination.

Contractors develop Local Coverage Determinations (LCD) for some covered DMEPOS,
including PMDs. LCDs specify under what clinical circumstances the DMEPOS item is
considered to be reasonable and necessary. For a PMD to be covered, LCD L23598 states that
the basic coverage criteria (A to C) must be met. The documentation must demonstrate that the
patient has (A) a mobility limitation that significantly impairs the ability to participate in one or
more mobility-related activities of daily living (MRADL), (B) a mobility limitation that cannot
be sufficiently and safely resolved by the use of an appropriately fitted cane or walker, and
(C) insufficient upper extremity function to self-propel an optimally configured manual
wheelchair in the home to perform MRADLs during a typical day.

D and M Sales, LLC

D and M Sales, LLC (D and M Sales), is a durable medical equipment supplier in Honolulu,
Hawaii, that sells and services PMDs. D and M Sales submitted Medicare claims to Noridian
Administrative Services (Noridian), the DME MAC for Jurisdiction D.



                                                  1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether D and M Sales claimed Federal reimbursement for
PMDs and associated accessories in accordance with Medicare requirements.

Scope

During calendar years (CY) 2006 through 2008, Medicare paid D and M Sales $968,880,
consisting of $852,327 for 246 PMDs and $116,553 for associated accessories. 1 We reviewed a
judgmental sample of 30 claims totaling $117,765, which consisted of $99,945 for PMDs and
$17,820 for associated accessories.

We did not review the overall internal control structure of D and M Sales. Rather, we limited
our review of internal controls to those controls that were significant to the objective of our
audit.

We performed our review from December 2009 through May 2010 and conducted fieldwork at
D and M Sales’ administrative office in Honolulu, Hawaii.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal laws, regulations, and guidance;

       •   used CMS’s National Claims History data to identify the 246 Medicare beneficiaries for
           whom D and M Sales received Medicare payments for providing PMDs during CYs 2006
           through 2008;

       •   obtained medical records from D and M Sales for all 30 sampled beneficiaries;

       •   requested that Noridian perform a medical review of documentation supporting PMDs
           provided to 27 sampled beneficiaries to determine whether medical necessity
           requirements were met;

       •   reviewed D and M Sales’ policies and procedures for billing Medicare for PMDs; and

       •   interviewed D and M Sales’ officials to obtain an understanding of D and M Sales’
           Medicare billing processes for PMDs.




1
    Examples of accessories were batteries, adjustable height armrest, and oxygen tank holder.

                                                           2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

During CYs 2006 through 2008, D and M Sales did not always claim Federal reimbursement for
PMDs and associated accessories in accordance with Medicare requirements. Of the 30
judgmentally sampled claims, 1 claim met Medicare requirements but 29 claims did not.

   •   For 26 claims, Noridian determined that there was inadequate documentation to support
       the medical necessity of the PMDs.

   •   For two claims, the written prescriptions for PMDs were not valid because they were not
       provided by physicians or treating practitioners legally authorized to prescribe PMDs in
       accordance with Federal regulations.

   •   For one claim, D and M Sales did not receive the written prescription and the
       beneficiary’s medical record within the required 45 days.

D and M Sales did not have adequate controls to ensure that it claimed Federal reimbursement
for PMDs in accordance with Medicare requirements. As a result, for 29 of the 30 sampled
claims, D and M Sales received $113,941 in unallowable Medicare payments, consisting of
$96,726 for PMDs and $17,215 for associated accessories.

INADEQUATE DOCUMENTATION SUPPORTING MEDICAL NECESSITY

Pursuant to 42 CFR § 410.38(c)(2), Medicare Part B pays for a PMD if the physician or treating
practitioner provides supporting documentation, including pertinent parts of the beneficiary’s
medical record, that supports the medical necessity of the device. Examples in the regulations
include history, physical examination, diagnostic tests, summary of findings, diagnoses,
treatment plans, and/or other information as may be appropriate.

The Medicare Program Integrity Manual, Pub. No. 100-08, chapter 5, section 5.8, states that the
supplier should obtain as much documentation from the patient’s medical record as the supplier
determines is needed to ensure that the coverage criterion for an item has been met.

D and M Sales provided medically unnecessary PMDs to 26 sampled beneficiaries. Noridian
determined that there was inadequate documentation to support the medical necessity of the
PMDs for 26 of the 27 claims reviewed. Specifically, medical reviewers from Noridian found
that the documentation for the 26 claims did not meet the basic coverage criteria A to C of LCD
L23598. For the 26 claims, D and M Sales received $101,709 in unallowable Medicare
payments, consisting of $86,340 for PMDs and $15,369 for associated accessories.


                                               3
UNAUTHORIZED ORDERING PHYSICIANS

Pursuant to 42 CFR § 410.38(c)(1), which refers to section 1861(r)(1) of the Act, a physician is a
doctor of medicine who is legally authorized to practice medicine and surgery by the State in
which he performs such function or action. Medical residents and podiatrists are not included in
this provision.

D and M Sales provided PMDs to two sampled beneficiaries whose prescriptions were not
written by authorized physicians or treating practitioners. In one instance, a medical resident
wrote the prescription, and in the other instance, a podiatrist wrote the prescription. Neither met
the definition in Federal regulations of a physician authorized to prescribe PMDs. For these two
claims, D and M Sales received $7,312 in unallowable Medicare payments, consisting of $6,288
for PMDs and $1,024 for associated accessories.

UNTIMELY RECEIPT OF WRITTEN PRESCRIPTION AND MEDICAL RECORD

Pursuant to 42 CFR § 410.38(c)(2), Medicare Part B pays for a PMD if the physician or treating
practitioner:

       (ii) Writes a prescription, as defined in paragraph (c)(1) of this section that is
            provided to the beneficiary or supplier, and is received by the supplier within
            45 days after the face­to­face examination.

       (iii) Provides supporting documentation, including pertinent parts of the beneficiary’s
            medical record … that supports the medical necessity for the power mobility device,
            which is received by the supplier within 45 days after the face­to­face examination.

D and M Sales provided a PMD to one sampled beneficiary without receiving the written
prescription and medical record within the required 45 days after the face­to­face examination.
For this claim, D and M Sales received $4,920 in unallowable Medicare payments, consisting of
$4,098 for the PMD and $822 for associated accessories.

RECOMMENDATIONS

We recommend that D and M Sales:

   •   refund to the Federal Government $113,941 in unallowable payments for PMDs and
       associated accessories and

   •   strengthen controls to ensure that claims for PMDs comply with Medicare requirements.

D AND M SALES COMMENTS

In written comments on our draft report, D and M Sales stated that “we absolutely concur with
[the] … report.” However, D and M Sales did not address our recommended refund. D and M
Sales provided information on actions taken to strengthen controls to ensure that claims for


                                                 4
PMDs comply with Medicare requirements. D and M Sales’ comments are included in their
entirety as the Appendix.




                                            5
APPENDIX
                                                                                                         Page 1 0[4


                  APPENDIX: D AND M SALES COMMENTS


D AND M SALES, LLC
DURABLE MEDICAL EQUIPMENT SUPPLIES


July 29, 2010

Report Number: A-09-10-02005

Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region IX
90-7''' Street, Suite 3-650
San Francisco, CA 94103
Attention: Ms Lori A Ahlstrand

Dear, Ms Lori A. Ahlstrand,

We are in receipt of the letter as to the audit findings conducted by the Department of Health and 

Human Services. We are very embarrassed as to the findings. 


D and M Sales, LLC is a small family operated business consisting of ourselves, husband and wife, 

our two sons and one sales representative serving the islands. It is our livelihood and in no way are 

we or wish to intentionally misrepresent the Medicare program. 



Action A: 

Upon receipt of your letter, immediate in-service meeting was called. On July 08, 2010 at 8:00 am 

with all present, the letter was read to all. 


Objective: 

It was agreed the objective is to determine where this company has failed and how we can eliminate 

this failure. Where changes need to be made in order to be in compliant with Medicare standards. It is 

believed that the first thing we needed to do in order put a stop to further non-compliant is to first re­

educate staff so from here on out, no more mistakes. Install controls to eliminate any further 

noncompliant. 


Plan A: 

In our meeting this day, we outlined what we would do first. That which is go back to basic one again 

and fully understand what documentations need to be had prior to dispensing a mobility device of any 

sort. 

Sales team will re-educate the physicians as to what is needed to be done by them for us to help their 

patients. 

In receiving an order from a physician, we will appoint 2 staff members to review total documentation 

to make sure all documentation is in file and all is in compliant as to what Medicare stipulates as one 

needing a durable medical equipment. 

Will establish a better check list that is part of patient folder which will insure all documentations are in 

patient folder. 





3322 CAMPBELL HONOLULU, HAWAII 96815 PH: 808735-2557 TOLL: 888 722-2200 FAX: 808 737-1385
                                                                                                      Page 2 0[4




D AND M SALES, LLC
DURABLE MEDICAL EQUIPMENT SUPPLIES



Plan 8: 

Pull all the files audited by the representatives of The Department of Health and Human Services. 

Review together each file in determining where we have failed in meeting Medicare standards. 

On a separate sheet, note name, doctor, and in what areas we have failed to meet Medicare 

standards. 

Initiate corrective measures immediately by contacting the physician by fax, letter and visit, where we 

all can help each other take action in correcting errors made by this company. Inform physician of 

their responsibilities as physicians. 


Plane: 

We feel, to honestly report back to The Office of Inspector General, these steps needed to be followed 

prior to reporting to them. That way, we can say we have done it and action has been taken and not 

will be taken. We will then complete our report to The Office of Inspector General. 




On July 12, 2010 at 8:00 am an in-service meeting was held at the office. This in-service is to get 

started on plan A. 


All were present. 


Method of presentation: 

We reviewed the letter again from the Department of Health & Human Services, Office of Inspector 

General. Reviewed Noridian/medicare.com/dme/news/docs website to gain positive insight as to 

documentation requirements. Pride Mobility literature regarding documentation/reimbursement which 

emphasized the same information. 


Objective: 

To note exactly what documentation is needed from the physician. 

To insure physician's face to face mobility evaluation is in compliant with Medicare standards for 

detailed information justifying the need of a DME. 

Insure present and past clinical notes reflect patient's disease pertinent to the need of a mobility 

device. Progression notes of disease justifying need of a DME to aid in MRADL. 

Use of a better check list in each file to make sure all is in there prior to dispensing. 


Education of Physician: 

In addition, today, a meeting was held with sales representative to initiate proper education literature, 

information sheets provided by Noridian stating exactly what they wish to be in a face to face mobility 

evaluation clinical notes. 

It has been established from here on out, that the sales representative will emphasize a more detailed 

face to face mobility evaluation, where the clinical notes needs to state purpose of this visit. 

What clinical note documentations are needed pertinent to MRADL. 

Re-education of physician and staff to begin immediately. 





3322 CAMPBELL HONOLULU, HAWAII 96815 PH: 808 735-2557 TOLL: 888 722-2200 FAX: 808737-1385
                                                                                                              Page 3 of4




          D AND M SALES, LLC
         DURABLE MEDICAL EQUIPMENT SUPPLIES




         On July 14-15-16, 2010 at 8:00 am an in-service was held at the office. This in-service is to get 

         started on plan 8 


         All were present. 


         Objective: 

         Review all files. 

         Find out where we have failed to meet Medicare guideline standards. 

         On a separate sheet, log name of clientlpatient, physician, note the deficits 


         Action taken: 

         We noted the errors of each clientlpatient and have written to each physician for their help in making 

         correction. We've noted many clientlpatient files lacked the proper amount of clinical notes or 

         documentation that justify the need of a mobility device. For some, the mobility evaluation was very 

         vague. We found the 2 c1ientlpatientthat an unauthorized physician issued a prescription for a PMD. 

         We noted that this company dispensed a PMD to a c1ientlpatient. The prescription was received after 

         the 45 day face to face. Therefore, it is a reflection on this company. There is a need to insure 

         controls are in place to make sure physician's mobility evaluation report is up to Medicare standards 

         offering a clear concise picture of clientlpatient's condition and there are sufficient clinical notes 

         justifying the need of a particular DME. We have elected                    and                 for this 

         task. Their responsibilities is to review each prescription to                                   review 

         the mobility evaluation to make sure it provides a clear concise picture of clientlpatient mobility 

         condition. Check to make sure there are sufficient present and past clinical notes of progression of 

         disease documentation supporting the need of a DME for MRADL. 


                                written to each physician for their help in correcting the matter. We have
                              to follow up on each physician to make corrective measures are being taken.
                         means of control in this area.


         Conclusion:
         It is with great embarrassment and humbleness that we absolutely concur with The Department of
         Health and Human Services report. We in no way wish to be non compliant with Medicare guidelines.
         We have taken immediate steps to first educate our staff as to the documentation requirements set
         forth by Medicare, delegated staff members to make sure all documentation is concise, that it is
         handled within the time allowed by Medicare, and that all documentations are in c1ientlpatient files
         prior to delivery a DME. We have initiated a better check list form to insure all documentations are in a
         c1ientlpatient file prior to delivering a DME.

         We have taken immediate action in correcting all files to make sure there are substantial
         documentations received to justify the need of a DME. We are presently working with the physicians
         in getting client patient primary care physiCian to do the paper work required for the dispenSing of a
         DME.



         3322 CAMPBELL HONOLULU, HAWAII 96815 PH: 808 735-2557 TOLL: 888 722-2200 FAX: 808 737-1385




Office of Inspector General Note: We redacted text with personally identifiable information.
                                                                                                  Page 4 of 4




D AND M SALES, LLC
DURABLE MEDICAL EQUIPMENT SUPPLIES




o and M Sales, LlC as stated is a small family owned business and wishes to continue to serve this
State. We have dedicated all our resources in this effort. Hawaii is made up of many small islands.
Many of the other islands do not have a provider to help these people. Records show this company is
one of few helping our friends not only on this island of Oahu, but also exclusively on the islands of
Molokai, lana'i, Kauai, and on the out sl!;irts of the island of Hawaii. We travel there at our own
expense. The Polynesian and Asian extract are among the highest having hereditary diseases and
are in great need of help.

We wish to continue to be of help to them as well our military veterans, some who are retired and in
need of help. That whiCh we have availed ourselves in helping exclusively at the Tripier Anny Medical
Center through the Outpatient Social Worker services and TriWesl. II is our endeavor 10 be in
compliant" is our endeavor to continue to be of help to all.

We humbly entreal you as you consider your final decision, Ihat it would allow us to continually be of
help to this community.

Sincerely,


Original Signed by

Dennison Lau
Sole Member




3322 CAMPBEll HONOLULU, HAWAII 96815 PH: 808 735·2557 TOll: 888 722·2200 FAX: 808 737·1385
